<html>
<title> - THE STATUS OF INNOVATIVE TECHNOLOGIES IN ADVANCED MANUFACTURING</title>
<body><pre>[Senate Hearing 114-420]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-420

    THE STATUS OF INNOVATIVE TECHNOLOGIES IN ADVANCED MANUFACTURING

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2016

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
           
           
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-973                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                      COLIN HAYES, Staff Director
                PATRICK J. McCORMICK III, Chief Counsel
               CHESTER CARSON, Professional Staff Member 
           ANGELA BECKER-DIPPMANN, Democratic Staff Director
                SAM E. FOWLER, Democratic Chief Counsel
           NICK SUTTER, Democratic Professional Staff Member





















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Blue, Dr. Craig, Chief Executive Officer, Institute for Advanced 
  Composites Manufacturing Innovation............................     5
Christodoulou, Dr. Leo, Director, Engineering, Materials and 
  Structures, The Boeing Company.................................    13
Ward, Doug, Director of Shipyard Development, Vigor Ketchikan....    20
Williams, Dr. David, Dean of the College of Engineering, The Ohio 
  State University...............................................    28
Wince-Smith, Hon. Deborah, President & CEO, Council on 
  Competitiveness................................................    35

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Blue, Dr. Craig:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    70
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Christodoulou, Dr. Leo:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Fact Sheet entitled ``Boeing Celebrates Grand Opening of 777X 
      Composite Wing Center'' dated May 20, 2016.................    47
    Response to Question from Senator Gardner....................    57
    Responses to Questions for the Record........................    73
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Ward, Doug:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Responses to Questions for the Record........................    78
Williams, Dr. David:
    Opening Statement............................................    28
    Written Testimony............................................    30
    Responses to Questions for the Record........................    82
Wince-Smith, Hon. Deborah:
    Opening Statement............................................    35
    Written Testimony............................................    37
    Responses to Questions for the Record........................    93
 
    THE STATUS OF INNOVATIVE TECHNOLOGIES IN ADVANCED MANUFACTURING

                              ----------                              


                        TUESDAY, APRIL 12, 2016

                                        U.S. Senate
                  Committee on Energy and Natural Resources
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order this morning.
    We have a hearing this morning on the status of innovative 
technologies in advanced manufacturing. We will be discussing 
several technologies that are either in place or being 
developed and some of the discussion may be pretty technical, 
but I do not think you need to be a rocket scientist to wrap 
your head around advanced manufacturing.
    What is going on in advanced manufacturing is certainly 
worthy of our attention today. Jobs in these sectors employ 
almost 24,000,000 people in the United States, approximately 13 
percent of our workforce. Advanced manufacturing accounts for 
about 19 percent of our national GDP with an overall economic 
impact of around $3.1 trillion per year.
    While advanced manufacturing merits attention, we also need 
to do a better job of preparing a workforce for the high 
quality jobs that these industries are creating. With 2,000,000 
manufacturing jobs projected to be perpetually unfulfilled by 
2025, there is a growing skills gap in our country that needs 
to be addressed.
    The reality is that we have both enormous challenges and 
unprecedented opportunities, and I hope today that we can glean 
some insights from several perspectives from industry, from 
universities, and from the market and our national labs on what 
we can do at the Federal level to positively impact the 
advanced manufacturing skills gap.
    This hearing is also designed to inform us about the 
significant innovation taking place in advanced manufacturing. 
So this is, kind of, a look down the road hearing. It is a 
chance for us to hear about technologies that are emerging, to 
gauge how they might affect our energy needs, our mineral needs 
and our workforce development issues, and then to understand 
the challenges that need to be overcome.
    There is certainly a lot happening at the Department of 
Energy from combined heat and power improvements to research 
and development in critical minerals to additive manufacturing 
that has already advanced to the point where fully functional 
Shelby Cobras can be created via a 3D printer. Totally wild.
    With this hearing we will also examine whether Federal 
programs meant to support innovation are working as intended 
and whether they are properly oriented to help our advanced 
manufacturing industries innovate, compete, and thrive.
    That brings us to the work that the Advanced Manufacturing 
Office is doing in collaboration with the national labs, 
universities and industries. So the questions will be asked. 
What areas are working best? Which areas can we aim to improve?
    I have consistently advocated technology neutral policies 
for the energy sector, and I would do the same for 
manufacturing. Instead of picking one favorite technology and 
plowing most or all of our limited Federal research dollars 
into it, I am convinced that the better path is to support 
research into a wider range of possible winners and to let the 
markets and consumers determine which are best.
    I would suspect that our panel today will underscore how 
crucial that approach is to the advanced manufacturing world.
    In this Committee we are on a good track. As a result of 
our commitment to work together, our bipartisan energy bill 
includes several provisions to boost innovation in advanced 
manufacturing. That includes a modified version of the Carbon 
Fiber Recycling Act, sponsored by Senator Cantwell, and the 
SMART Manufacturing Leadership Act from Senators Shaheen and 
Alexander.
    I am pleased that we have our witnesses before us today to 
share their thoughts and comments. I would like to particularly 
recognize and welcome a friend from Ketchikan, my hometown, 
here with us today. A long way to talk about advanced 
manufacturing and what that means in even some very remote and 
isolated parts of the country, so it is a pleasure to have you 
all here today.
    I will now turn to Ranking Member Cantwell for her 
comments.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Murkowski, for 
holding this important hearing, and I thank all the witnesses 
for being here today. The success of our manufacturing sector 
is vital to our economy, and during today's hearing we are 
going to discuss the innovative technologies in advanced 
manufacturing that you all have been involved in.
    I am interested to hear from our panel about recent changes 
in the manufacturing sector and how technology can improve 
efficiency, reduce emissions, increase U.S. competitiveness.
    Manufacturing is responsible for more than 12,000,000 
American jobs and is contributing more than $2 trillion to the 
U.S. economy and funding 70 percent of the nation's industrial 
research and development. But to me, these manufacturing jobs, 
because of the wages they pay, help people who come from 
working class backgrounds make it to the middle class. So we 
want to continue these manufacturing opportunities in America.
    In my state, ten percent of Washingtonians work in 
manufacturing, that is 289,000 manufacturing jobs in my home 
state, and the health of the U.S. manufacturing economy depends 
on exports.
    With middle class around the globe expecting to double by 
2030, the market for goods outside the United States is growing 
and manufacturing is important to the economy but it does face 
stiff competition from those around the globe. In fact, our 
international competitors are not standing still. They are 
accelerating their investments in advanced manufacturing, so 
U.S. manufacturing needs to continue to build on its strengths.
    Our goal is not just to keep or make the cheapest product, 
but to continue to advance in innovative technologies such as 
semiconductors, aerospace and innovate faster than others. 
Prioritizing the innovation and investing in the kind of 
technologies that will grow jobs is something, I think, that we 
should all be able to agree on. Because advanced manufacturing 
harnesses this innovation, makes our businesses more 
competitive, reduces our energy costs and because energy and 
natural resources are closely linked together with 
manufacturing, what we are going to talk about today is very 
critical.
    All manufacturing consumes a large amount of energy and 
water and leaves behind various waste streams. In fact, the 
2015 Quadrennial Review that our Committee had a hearing on, 
found that manufacturing accounted for 25 percent of energy 
consumption and 79 percent of industrial energy use. So if we 
can develop next generation advanced manufacturing technologies 
right here at home, we will reduce emissions, save energy and 
assure the competitiveness of our U.S. manufacturing sector.
    When we talk about these advanced technologies, there are 
still challenges that remain. One of the big ones that I saw in 
the Quadrennial Review, which is almost staggering when you 
think about it, is the importance of developing a skilled 
workforce for energy and manufacturing. It is reported in that 
document that we need an additional 1.5 million new workers 
over the next 15 years to meet demand. So just training that 
workforce that we need to be competitive is a goal and 
challenge in and of itself.
    That is why Senator Murkowski and I worked together on the 
Workforce Title of the Energy bill. We created a workforce 
training program to incentivize labor and industry to work 
together and provide training. It makes investment dollars 
available that would allow an estimated 300,000 individuals 
over the next four years to receive training and take advantage 
of new energy and manufacturing job opportunities.
    One delight for me is in the area of composite 
manufacturing where we had created several years ago an 
advanced composite program at Edmonds Community College. I was 
delighted last week to be at home and see on the front page a 
graduate of that program opened up his own aerospace company in 
Arlington, Washington with a little two-seater hobbyist plane 
that they are now building there. He had not previously, I 
think, been in aerospace but had been in another sector, got 
skilled in composite manufacturing and now we have another 
manufacturer in our state.
    So these are one of the reasons why we need to pass the 
energy bill because it has some great priorities in there for 
manufacturing. The Advanced Manufacturing Office which partners 
with industry, national laboratories, small businesses, 
universities, and other stakeholders in new energy efficient 
processes, can help bring them to scale. The Advanced 
Manufacturing Office has also focused on new materials, just 
like the ones I just mentioned before in carbon fiber 
composites.
    But now we need to focus on carbon fiber recycling, and 
this is something that we were pleased to push through in the 
energy bill. Recycling carbon fiber reuses left over scrap 
materials from manufacturing, to help us develop new 
manufacturing processes. So while we have come a long way on 
carbon fiber, now we have to figure out the recycling end. 
Recycling composites only uses one-tenth of the energy compared 
to actually manufacturing the new fiber composites. So it holds 
great potential. In Washington State alone, two million pounds 
of carbon fiber scraps are being sent to landfills each year. 
If this can be recycled, it has a potential market value of $50 
million.
    I am pleased that the Advanced Manufacturing Office, along 
with the Institute for Advanced Composite Manufacturing 
Innovation at Oak Ridge, will be represented by Dr. Craig Blue, 
who is working with innovators at the Port of Port Angeles, 
Washington. I look forward to hearing about this particular 
area of expertise. The Port is retooling its facilities and 
workforce to meet the demands of emerging markets and creating 
good-paying jobs.
    I also want to say that I know that we are talking about 
the FAA bill on the floor, and it has a Center of Materials 
Excellence at the University of Washington in Aerospace 
Industry. I am sure we will hear a little bit about this today, 
the Aerospace Industry is leading the way on 3D printing, the 
Chairman mentioned this issue.
    I am glad that Dr. Christodoulou is here today from The 
Boeing Company and to talk about the investments that we are 
making in the future of manufacturing. Boeing was an early 
adopter of 3D printing technology, and today it has more than 
20,000 3D printer printed parts in use with different aircraft. 
So 3D printing has a potential to change and replace various 
aircraft parts.
    I know it is not just Boeing, but there are many other 
companies that are using these new applications. One example is 
Planetary Resources, a space exploration company, using 3D 
printing to reduce the number of parts on the space craft, 
making them lighter and more efficient. There are all kinds of 
examples here today that we are going to hear about where new 
technology and investment is helping us change manufacturing 
and, in particular, some of the sectors that I mentioned, 
obviously big in our state, aerospace.
    But there are other industries like shipbuilding that are 
developing new manufacturing processes, and so I hope that we 
can talk about how these resources and investments today will 
help keep those sectors of the U.S. economy very competitive.
    Lastly, I just want to mention my colleague, Senator 
Collins, and I introduced a Federal tax credit incentive for 
apprenticeships because I think part of meeting this workforce 
issue is also incenting more apprentice programs in the United 
States.
    I look forward to hearing from the witnesses how we keep 
our competitive edge in manufacturing today. Such a vital 
sector of our economy and appreciate everyone's leadership on 
this issue.
    The Chairman. Thank you, Senator Cantwell.
    We will now turn to testimony from our respective 
witnesses.
    We are joined this morning by Dr. Craig Blue, who is the 
CEO for the Institute for Advanced Composites Manufacturing 
Innovation as well as Director of the Advanced Manufacturing 
Office at Oak Ridge, one of our national labs. Welcome, Dr. 
Blue. We next have Dr. Leo Christodoulou, who is the Director 
of Engineering for Materials and Structures at The Boeing 
Company. Welcome.
    Dr. Christodoulou. Thank you.
    The Chairman. As I mentioned my friend from Ketchikan, Mr. 
Doug Ward, who is the Director of Shipyard Development for 
Vigor Alaska. Good to have you, Doug.
    Dr. David Williams is the Dean of the College of 
Engineering at Ohio State University. Welcome.
    Finally, we have Deborah Wince-Smith, who is the President 
and CEO for the Council on Competitiveness.
    Welcome to each of you and Dr. Blue, if you would like to 
proceed, please.
    We ask that you limit your testimony to five minutes. Your 
full statements will be included as part of the record.

STATEMENT OF DR. CRAIG BLUE, CHIEF EXECUTIVE OFFICER, INSTITUTE 
        FOR ADVANCED COMPOSITES MANUFACTURING INNOVATION

    Dr. Blue. Okay. Thank you, Senator.
    To reiterate, I'm the CEO of the newly-formed composite 
institute, IACMI, Institute for Advanced Composite 
Manufacturing. As mentioned prior to that I was at Oak Ridge 
National Lab where I spent 20 years working hand-in-hand with 
the industry coupling basic to applied research. I also worked 
with a team to initiate the manufacturing demonstration 
facility which has had tremendous success over the last four 
years with 10,000 visitors and coupling closely to the supply 
chain and delivering new technology.
    IACMI is the fifth manufacturing institute. Second funded 
by DOE's EERE Advanced Manufacturing Office. The focus of the 
Institute is on automotive, wind, compressed gas, storage 
deposits as well as recycling. This is a public/private 
partnership that catalyzes existing capabilities across the 
country to enable rapid deployment of high volume composite 
manufacturing.
    The DOE award of $70 million over five years enables an 
investment of $180 million from states, universities, and 
companies. The Institute was structured by listening to 
industry which said that they wanted capability in close 
proximity to their manufacturing, so we placed our technology 
focus areas near large concentrations of manufacturing 
employment.
    First in automotive manufacturing is Michigan, so we put 
our automotive composite technical focus area in Michigan at 
Michigan State University. Two in the manufacturing area is 
Ohio. So we put our compressed gas storage at University of 
Dayton Research Institute. Number three is Indiana so we put 
our computational and modeling focus area at Purdue. Fourth in 
manufacturing was Tennessee where we put our materials and 
processing with the University of Tennessee and Oak Ridge 
National Laboratory. Our wind focus area was put in Colorado 
and NREL where there's a significant wind manufacturing 
ecosystem.
    The Composite Institute was launched in June of last year 
in east--Knoxville where we had over 300 people in attendance. 
Since then we've had significant success in standing up the new 
institute. In fact, when we kicked off the institute we had 
about 120 members. Today we're working on 245.
    We've executed 125 agreements and we're working on the 
second 120, a very good sign.
    The geographic footprint and capabilities of IACMI have 
expanded throughout our partnerships. We signed an MOU with 
ACMA, the American Composite Manufacturing Association, which 
represents 500 composite companies in the United States. This 
expanded our initial footprint where we had partners from 32 
states to 50 states.
    We also announced a co-location with the Lightweight 
Innovations for Tomorrow, LIFT, in Michigan. This is where 
we're going to have our scale up facility for composites for 
the automotive industry.
    At the end of the day these systems are going to be multi 
material. They'll have magnesium, aluminum, steel and 
composites. We feel that this is a real strong move.
    We signed an MOU with the Composite Prototyping Center in 
New York which expands our capabilities to the Northeast. And 
we're working on an MOU with Composite Recycling Technology 
Center in Port Angeles, a nice ecosystem out there and it takes 
us to the West Coast.
    So more recently, a licensing opportunity was announced by 
our partner, Oak Ridge National Lab, a commodity based carbon 
fiber is being produced at half the energy. This is really 
important because when you look at a carbon fiber composite, 90 
percent of entrained energy is actually in the carbon. So this 
is very exciting.
    And then most recently, as in last week, we had a two-day 
composite training certification program at IACMI headquarters 
in Tennessee where we had 250 people, I'm sorry, 150 people in 
with composites one and ACMA, actually getting a certificate to 
make composites.
    The real strength of the institute is aligning 
manufacturing challenges with U.S. technical and infrastructure 
capability. Coupling basic and applied research is the key to 
success. We are identifying composite ecosystems across the 
county and pulling them in to one composite institute, IACMI.
    Thanks.
    [The prepared statement of Dr. Blue follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    The Chairman. Thank you, Dr. Blue.
    Dr. Christodoulou?

  STATEMENT OF DR. LEO CHRISTODOULOU, DIRECTOR, ENGINEERING, 
          MATERIALS AND STRUCTURES, THE BOEING COMPANY

    Dr. Christodoulou. Good morning, Chairman Murkowski, 
Ranking Member Cantwell, Senators, it's my pleasure to be here 
today to speak to you about advanced materials in manufacturing 
in the aviation industry.
    I am Leo Christodoulou, Director, Engineering, Materials 
and Structures at The Boeing Company. Today I will touch on 
three areas that are important in this domain. Energy 
efficiency, development and use of composite materials, and 
very important, workforce development.
    First, please allow me to give you a short background on 
The Boeing Company. With approximately 152,000 employees in the 
United States, Boeing's the world's largest aerospace company. 
Our operations collectively result in the employment of an 
additional 1.5 million jobs within the United States.
    Let me now return to the first topic. Boeing has a clear 
strategy and commitment to energy efficiency in the 
manufacturing processes as well as in operation of our 
aircraft. Investment opportunities that we have identified 
within the manufacturing domain include automated fiber 
placement, a way of making composites out of the autoclave 
composites, which substantially reduce energy, additive 
manufacturing, as well as advanced manufacturing and machining 
and fabrication techniques.
    Now, fuel efficiency has been central to the health and 
vitality of the aviation industry and flight operations have 
consistently, over the years, become more efficient. For 
example, today's commercial jets are 70 percent more efficient 
than the aircraft flying 50 years ago, and we have not stopped. 
We're moving forward still. Our new 737 Max, which will come 
into service next year in 2017, will reduce fuel use by an 
additional 20 percent over the aircraft it replaces. Our new 
Triple 7X, built in the State of Washington with the new wings, 
with the first delivery in 2020, will be the most fuel 
efficient, wide-bodied aircraft of the jet age.
    Now let me turn to composites and ceramics. As you know, 
aluminum structures have been the mainstay in commercial 
aviation for the last 50 years. However, the double digit 
improvements in efficiency I spoke of, have really come about 
by a number of factors including the use of composite 
materials.
    Incorporation of carbon fiber composites in aircraft design 
improves performance, reduces life cycle energy costs, 
substantially, reduces the complexity of the parts enabling 
integral structural improvements for corrosion resistance and 
damage tolerance. It is a winner all around. For example, 
carbon fiber composite materials make 50 percent of the 787 
Dreamliner aircraft.
    Beyond carbon fiber composites we use ceramic made 
composites and we have evaluated those for use in our aircraft. 
In 2014, as an example, we flight tested an innovative ceramic 
matrix composite nozzle which improves efficiency and improves 
performance of our aircraft.
    Finally, I want to touch on one of the most important 
elements which is the workforce development activities in 
support of advanced manufacturing.
    Advanced manufacturing, especially in the aerospace 
industry, requires a robust pipeline of students with globally 
competitive skills. This is a global competition. These skills 
can be defined not only as STEM, but also as the ability to 
think critically and solve problems, work in teams and 
communicate effectively.
    This is because today's engineers and assembly line 
mechanics are likely to work with state-of-the-art equipment, 
including robotics and advanced materials such as the 
composites I mentioned on the Boeing Dreamliner.
    Boeing is addressing this need in a variety of ways 
including the development of employer driven education 
programs. One of these very highly successful programs is the 
Washington Aerospace Training Research Center which is operated 
by the Edmonds Community College and Renton Technical College. 
Senator, you spoke of this.
    The Boeing Company works closely with both schools and has 
identified and created six aerospace industry certifications 
and provided financial resources and equipment to simulate a 
realistic work environment. Since 2010, the Center has provided 
training to more than 3,000 students. That's good.
    Again, I would like to thank the Committee for allowing me 
the opportunity to testify before you today, and I would be 
very happy to answer your questions.
    [The prepared statement of Dr. Christodoulou follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
        
    The Chairman. Thank you, Dr. Christodoulou.
    Mr. Ward, welcome.

STATEMENT OF DOUG WARD, DIRECTOR OF SHIPYARD DEVELOPMENT, VIGOR 
                           KETCHIKAN

    Mr. Ward. Madam Chairman, Committee members, thank you very 
much for this opportunity to address you today and let you know 
what we're doing in Ketchikan, Alaska to introduce advanced 
manufacturing in the middle of the largest intact temperate 
rainforest in America.
    Before I go on I want to introduce myself, Doug Ward. As 
the Senator said, I've been Director of Shipyard Development 
for the project in Ketchikan for 22 years now. And to be 
associated with the project that has reindustrialized the 
community in a region has been one of the greatest honors that, 
I think, anyone can be engaged in.
    Truly, Ketchikan is a resilient town. I think when I get 
done at the end of my testimony you'll see why we like to 
compare ourselves in Ketchikan, in fact, we like to tell people 
in Alaska, that we are the Boeing of Ketchikan, advanced 
manufacturing can reach down into small communities and be 
engaged in by small businesses. And that's what our story is 
about.
    I mentioned the intact temperate rainforest of Southeast 
Alaska. We probably wouldn't have a shipyard if it were not for 
the collapse of the timber industry in the 1990's. That timber 
and fishing has been the backbone of the Southeast Alaska 
economy for many, many years. And in the 90's it all collapsed. 
Foreign farmed salmon even hit our fishing industry with a 
double whammy.
    Now in Alaska we have thousands and thousands of miles of 
coastline, more coastline than all the states combined. As a 
result, we have a state ferry system with the longest ferry 
route in the world. And it was with that in mind that 
enterprised the planners in Ketchikan began thinking about 
building a shipyard to maintain the state's ferry system back 
in the 70's.
    The state did build that shipyard. It opened in the mid-
80's, but for lack of investment and all of the infrastructure 
required it soon failed. Then along comes the collapse of the 
timber industry and a few of us in Ketchikan thought maybe that 
shipyard was a pretty good way to diversify and strengthen, not 
only Ketchikan and Southeast economy, but add advanced valued 
added manufacturing to the state.
    So I am so pleased to hear my colleagues talk about the 
importance of workforce. Of all the challenges that we faced in 
developing, what today is, I believe, one of the best little, 
small shipyards in all of America, as the challenge of 
developing a globally competitive workforce, particularly in a 
population that is non-traditional with respect to advanced 
manufacturing.
    So there were a couple of the challenges that we really had 
to face up there. One was a non-traditional workforce, and the 
second was the lack of a talent pipeline. I think those are 
common not only in Ketchikan but across the nation.
    So some of the innovations that we have introduced with our 
workforce development within the incumbent worker base is 
developing a multi-skilled approach to training an industrial 
workforce. We advance people by the acquisition of having more 
than one shipbuilding skill, that way they have stable 
employment and we have a stable employer. I'm sorry, we have a 
stable workforce.
    We're using some very sophisticated production measurement 
tools that informs us on where in the production process we 
need to increase our investments in workforce development, 
where things are going slower, where we need to speed them up.
    We also have relationships with our University of Alaska 
and with our tribal communities too. Just recently the 
Ilisagvik College from Barrow, which bases its curriculum on 
the NCCER standard construction curriculum, was in Southeast 
Alaska and will be opening up a branch of their college in the 
shipyard, in Ketchikan, providing college credit while people 
are learning, earning their way toward an apprenticeship 
program.
    On the pipeline, the talent pipeline side, we have 
partnerships with high schools all around Southeast Alaska, 
again using standardized curriculum, again with dual credit, 
the opportunity to get college credit while preparing for work, 
for work that is year round and full time is a unique 
opportunity in all of the State of Alaska, particularly in 
Southeast.
    And the last piece is stable funding for workforce 
investment. We know that the career and technical education 
fundings are in decline across the nation, particularly in 
Alaska. I would offer that the national fund for workforce 
solution is an approach that formulizes a private investment in 
workforce development leveraging public funds and then has a 
national fund site that brings in the major national 
philanthropies to stabilize and work on projects that get 
people to work. And I think, that's probably one of the most 
important things that we see in our workforce is a rational 
workforce investment system.
    Now I mentioned our University of Alaska. The University of 
Alaska, Ketchikan campus is just beginning a $6.6 million 
renovation of the technical center. They have the state's first 
maritime career and technical center in the state. So we're 
looking forward to a long future in advanced manufacturing, and 
I'll hope to be back someday to report the successes that we're 
having.
    Thank you.
    [The prepared statement of Mr. Ward follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
    The Chairman. Thank you, Doug.
    Dr. Williams, welcome.

    STATEMENT OF DR. DAVID WILLIAMS, DEAN OF THE COLLEGE OF 
             ENGINEERING, THE OHIO STATE UNIVERSITY

    Dr. Williams. Chairman Murkowski, Ranking Member Cantwell, 
members of the Committee, thank you for the opportunity to 
speak about the transformation innovations occurring in 
advanced manufacturing at The Ohio State University and at 
universities nationwide.
    I'd like to thank Ohio Senator, Rob Portman, a member of 
this Committee, for his support and leadership on U.S. 
innovation. We're fortunate to have Senator Portman and Senator 
Sherrod Brown representing the Buckeye State in the U.S. 
Senate.
    As the largest industry sector in the State of Ohio, 
accounting for almost 20 percent of the state's GDP, 
manufacturing is critical to Ohio's economy. And my testimony 
today will highlight the strides we're making in Ohio in 
advanced manufacturing. I hope the examples of research and 
workforce development I give will demonstrate the ability to 
leverage public investments in innovation and economic growth, 
both locally and across the nation.
    So let me start with research. A powerful example of 
Federal research investments supporting manufacturing is the 
National Network for Manufacturing Innovation, you've already 
heard about, IACMI, at Oak Ridge.
    Ohio State faculty play an integral role in three of the 
eight current NMMI hubs. I will speak about the one I know 
best, lightweight innovations for tomorrow, or LIFT, which is 
based in Detroit.
    Ohio State along with Columbus-based EWI and the University 
of Michigan are the co-founders of LIFT which is a $148 million 
manufacturing consortium. We're funding multiple projects 
driven by industry needs that engage some of the world's 
leading researchers.
    Just one of many LIFT projects is a collaboration between 
Ohio State and GE Aviation in Cincinnati demonstrating that 
public/private collaboration speeds up the solution process in 
advanced manufacturing.
    This one project designs and tests titanium alloy 
performances in aircraft engines, tests them in the computer 
relevant in the lab. Titanium alloys are expensive but they can 
be thoroughly tested now without cycling them through lengthy 
trial and error processes in the lab. Such computer-based 
testing lowers costs, speeds up design and manufacturing time 
tables bringing new products to market faster and with lower 
costs.
    I want to emphasize that universities themselves also 
invest in research and Ohio State University's discovery themes 
we're investing close to $400 million in sudden grant 
challenges, one of which is materials and manufacturing for 
sustainability. We're currently hiring 30 new faculty to 
accelerate advanced materials design and manufacturing. We're 
building this investment on the Federal Government's materials 
genome initiative which, as you know, accelerates discovery, 
manufacturer and deployment of advanced materials in half the 
time and at a fraction of the cost that it currently takes.
    Another example of our own investment is our Institute for 
Materials Research which has 220 faculty members across seven 
colleges responsible for implementing the materials and 
manufacturing for sustainability discovery theme. And just one 
of many labs within IMR is the Center for Electron Microscopy 
and Analysis which contains over $30 million of cutting edge 
electron microscopes used to characterize the next generation 
of advanced manufacturing materials at the atomic level.
    Going out to workforce development, the LIFT education and 
workforce development team, led by Emily Durrocco, informs 
national and best practices in advanced manufacturing career 
pathways. And one example is LIFT Ohio means internships and 
co-ops. That's an initiative at Ohio State. We have more than 
80 internships and many of which co-locate students, faculty 
and industry partners working together to solve lightweight 
metal manufacturing problems through a defined statement of 
work and industry-driven deliverables. This program also taps 
community college and vocational/technical centers to develop a 
talent supply chain. So universities are key partners in 
workforce development.
    The College of Engineering has recently established a 
Department of Engineering Education, led by Professor Monica 
Cox. This enables student success by developing and delivering 
state-of-the-art, innovative, multi-disciplinary engineering 
courses.
    In conclusion, let me note that engagement with industry is 
the hallmark of our land-grant mission at The Ohio State 
University. Research and development partnerships with major 
automotive and aerospace companies go back to the 1940's. We 
strongly believe that collaboration with industry is more 
important today than ever before and the Federal Government 
should continue to play an essential role in fostering 
university/industry partnerships.
    Universities are engines of discovery and talent 
development. Growing and sustaining the innovation ecosystem 
for advanced manufacturing will require concerted efforts 
across government, industry and academy such as LIFT and the 
other NMMIs. Government, universities, and industries working 
together will ensure that the U.S. remains a beacon of economic 
prosperity and the undisputed international champion of 
innovation.
    Thank you again for this opportunity. I look forward to 
answering any questions you might have.
    [The prepared statement of Dr. Williams follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
    The Chairman. Thank you, Dr. Williams.
    Ms. Wince-Smith, welcome to the Committee.

STATEMENT OF DEBORAH WINCE-SMITH, PRESIDENT AND CEO, COUNCIL ON 
                        COMPETITIVENESS

    Ms. Wince-Smith. Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee, thank you for the 
opportunity to appear before you to discuss technologies that 
could radically transform manufacturing here in the United 
States.
    I have the privilege of representing the now 30-year-old 
U.S. Council on Competitiveness, a non-partisan leadership 
organization of CEOs, university presidents, labor leaders and 
national laboratory directors, committed to advancing U.S. 
competitiveness in the global economy. Through a deep public/
private partnership with the Department of Energy spanning two 
administrations and through our CEO-led energy in manufacturing 
competitiveness partnership, the Council is exploring the 
technology and economic opportunities at the nexus of our 21st 
century energy and manufacturing transformations.
    Indeed, right now, over 50 leaders from our country are 
meeting at the Council on Competitiveness discussing the cross 
cutting role of advanced materials in every sector of our 
manufacturing enterprise.
    While recent years have been difficult for U.S. 
manufacturing, as we transverse a structural transition in the 
world order of production the winds of competitiveness have 
begun to blow back in the direction of the United States.
    Our 2016 U.S. Council Deloitte survey on global 
manufacturing competitiveness ranks the U.S. number two now as 
a manufacturing leader with projections by 2020 that the U.S. 
will surpass China.
    Wages overseas are rising. Labor costs in China have 
increased fivefold since 2005. And in 2014 alone, manufacturing 
share of China's GDP declined to 36 percent. The U.S. energy 
boom has given American producers both the critical cost 
advantage, created a clear advantage for the U.S. chemical 
industry and foreign direct investment is flowing into the U.S.
    We now must embrace disruptive innovations and accelerate 
the use of powerful new tools and capabilities to power 
productivity, growth and job creation. Nano manufacturing, bio 
manufacturing and digital manufacturing are shaping new 
products in industries enabled by our nation's long term 
investments in the digital, genetic and atomic S&T revolutions.
    We know the physical world and the digital world are 
converging through sensors and networks in a data tsunami 
that's connecting everything on a scale once imaginable through 
the Internet of everything. We couple this digital 
infrastructure to the exponential power of our advanced 
supercomputers to model and simulate complex physical 
phenomena, manufacturing promises and prophesies and innovators 
will save time, reduce costs and obtain powerful competitive 
insights through this shared infrastructure.
    Industry experts estimate that investments in smart 
manufacturing could generate cost savings and productivity 
gains adding $10 to $15 trillion to global GDP over the next 15 
years. Coupling smart manufacturing with entirely new classes 
of materials and product technologies from flexible electronics 
to additive fabrication is already empowering innovation and 
new industrial capacity.
    Integral to this energy system transition is the tremendous 
opportunity to manufacture clean energy products expected to be 
a trillion-dollar market.
    The U.S. enters this new industrial age with significant 
advantages. We remain the world's epicenter for disruptive 
innovation. We are still the world's largest investor in R&D, 
accounting for one-third of all global R&D spending with our 
Federal investment being absolutely critical.
    We have a superb innovation ecosystem where industry, labs, 
government and universities collaborate, not just on R&D but in 
large scale, public/private partnerships to reduce risk and 
accelerate commercialization such as the growing network of 
national manufacturing institutes and the new energy in 
materials network underway.
    In closing, we stand at the cusp of the new industrial 
revolution and the stakes are very high. Around the world our 
competitors are optimizing their industrial ecosystems to be 
competitive. The U.S. must leverage its strengths in R&D and 
talent and leverage our strong industrial capacity for 
productivity and high value innovation.
    A final thought. CEOs around the world rank talent-driven 
innovation as the differentiator for advanced manufacturing 
competitiveness. We must equip our students with advanced STEM 
education, problem solving, leadership skills. We must attract 
and retain global R&D talent and maintain our national R&D 
investments. And very importantly, we must invest in the 
training in depth development of an ever up scaled 21st century 
workforce.
    Thank you. I'd be pleased to answer questions.
    [The prepared statement of Ms. Wince-Smith follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
 
    
    The Chairman. Thank you, and thank you to all of the 
panelists who have joined us here this morning.
    Mr. Ward, let me ask you a question. I just had to smile, 
as did my colleague from Michigan, when you said that Ketchikan 
is the Boeing of Ketchikan or the shipyard is the Boeing of 
Ketchikan. We liked that reference. Having been at the shipyard 
there on many, many occasions, I know that you take exceptional 
pride in developing that local talent to ensure that the jobs 
that are there are jobs that can support families in Ketchikan, 
and I think the efforts have been exceptional.
    If you were to have told people in the Ketchikan area that, 
in our little shipyard, we would be taking on building the 
Alaska class ferry project, if you had made this statement some 
20 years ago, they would have said that is pie in the sky. We 
cannot build ships like that. That all happens down South.
    We have changed that dynamic because of a commitment but, I 
think, also a commitment from those to make sure that the jobs 
that are created, the training that goes on, allows you to do 
just that.
    Can you speak real quickly to where you are with the Alaska 
class ferries project and the significance of something like 
that, because it truly is a game changer?
    Mr. Ward. Yes, thank you very much, Senator.
    The shipyard itself started out in the early mid-1990's 
when we opened it up as a repair station for the Alaska main 
highway system fleet. As the economy collapsed we were asked to 
develop a plan for development of the shipyard, and it dawned 
on us that ship building, unlike ship repair, is a little bit 
of a different activity.
    Ship repair is very uncertain. You never know what you are 
going to find when you begin opening and inspecting systems on 
a ship, compared to ship building where you have a complete set 
of plans drawn out in detail and you have time to develop a 
build strategy and put that plan into effect. It's much more 
organized than ship repair. It is also a more year round 
activity. So we felt that ship building was very important to 
have in Ketchikan to provide year round employment so that we 
could maintain a skilled workforce.
    But I think we ought to, as we look forward, some of our 
first new builds were local/state ferries that take us back and 
forth to our airport bridge. So we gradually stepped into it. 
And I guess the fact that we're finally building Alaska State 
ferries with 200 Alaskans that are trained to global standards 
in ship building is a real testament to the persistence of the 
citizens of Ketchikan and the ability of our nation to develop 
training resources and techniques that are affordable and 
accessible to small businesses around the nation.
    So where 20 years ago, yes, the answer to that question 
would have been astonishment and skepticism, with what we've 
learned through things like the National Shipbuilding Research 
Program and participating on the Council on Competitiveness to 
understand how to develop a global workforce, not only is it 
possible but we're actually doing it.
    So we're about 25 percent through a two ship construction 
project. We're about a year and a half into it, and the first 
of the ships will be delivered in 2018. That supports about 90 
jobs a year for four years in a community where year round 
employment is a real rarity.
    I'd also note, we're probably one of the few shipyards in 
the nation that has its own totem pole at the front gate. We do 
that to honor the cultures that have been plying the waters 
around Ketchikan for thousands and thousands of years.
    The Chairman. That is a great success story. I appreciate 
that, thank you.
    Let me turn to my Ranking Member, Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chairman.
    Dr. Christodoulou, you mentioned the Triple 7X, and we're 
so proud of that. That represents a pretty significant 
milestone in advanced manufacturing, because you are bringing 
the wing development back to the U.S.
    Dr. Christodoulou. Yes.
    Senator Cantwell. So what about that gave us the edge in 
either manufacturing? How does our continued innovation keep us 
ahead in that?
    Dr. Christodoulou. Yes. Boeing has invested $1 billion in 
the new Wing Center which will sustain jobs in Puget Sound. I 
have our fact sheet for the record.
    [The information referred to follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Thank you, Senator Cantwell, for that question.
    We are very excited about the fact that we are, indeed, 
building the new factory in Seattle--and of course the wings.
    The innovations are based on our ability to form the 
largest wing composite structure ever made in the State of 
Washington here with the best technology that we have today 
which is beyond what we currently use for the 787. We have a 
very innovative design. And the composite fabrication processes 
for these very large wings take into account, not only advanced 
materials, but modeling and simulation of this very large 
structures which, if I may just share with you how composite 
structures is made?
    Where you have this layer by layer. It's a form of additive 
manufacturing. It's a layer by layer tape which is placed on 
the composite material, on the uncured composite material. And 
that green state material, as we call it, goes into the 
autoclave to form the final ultra strong, ultra lightweight 
shape. The technologies for doing that involve not only good 
modeling and simulation of the distortions that make a rise as 
a result of the processes so that we minimize them, but they 
require instrumentation and tooling of the high precision to 
place the fibers and to control the temperatures accurately.
    That type of technology and that infrastructure expands 
beyond Boeing with a lot of our local industry and other 
companies in the area that actually produce that equipment.
    So in building the wings in the United States, not only do 
we have a much better product, higher performance product of 
the largest of their kind, but we have also increased the whole 
ecosystem of advanced manufacturing in composite structures. 
State of the art, best in the world, very competitive and we 
look forward to a very productive and successful program there.
    Senator Cantwell. So you could say this is an example of 
advanced manufacturing investment bringing jobs back from 
overseas?
    Dr. Christodoulou. Absolutely. Absolutely.
    A significant number of jobs, high quality jobs and 
fulfilling careers, not just jobs, but fulfilling careers for 
our people. I think that that makes a very strong element in 
our ecosystem of manufacturing.
    Senator Cantwell. That brings up my follow up question to 
you and Mr. Ward, which is, whether it is shipbuilding or 
aerospace, we need more skilled workers. How do we go about 
getting, accelerating the skill level of our workforce?
    Dr. Christodoulou. Yeah, I think that's one of the biggest 
challenges that we face as a nation, not only because of the 
changing nature of the jobs, of the careers that are coming 
along, but because of the retirement of a lot of our people 
that are coming up and the changing of the workforce.
    And if I may, I'd like to think of it this way. Boeing will 
celebrate its 100th year anniversary coming up in July, but the 
technology of the last century was subtractive manufacturing, 
you know, sort of machining of large parts. The technology of 
the new century is additive manufacturing. It's the opposite.
    In that transition we need to train our people in the new 
skills of the new century. If they're information-based, 
they're data driven and they work collaboratively with 
robotics, not the robotics to replace our people, but for the 
robots to do the repetitive, dangerous and dull jobs and allow 
our people to use their creativity and problem solving, that's 
a very important part of the complete ecosystem for training as 
we look forward.
    We need to work collaboratively with those robots so they 
can do the dirty jobs and we can do, our people, can do the 
innovation and interesting jobs and the fulfilling careers.
    Senator Cantwell. Mr. Ward?
    Mr. Ward. Thank you.
    Yes, there's several approaches we're taking to accelerate 
development of a globally competitive workforce in Ketchikan.
    One of them was developed by the War Manpower Commission in 
1942, a methodology of learning called training within industry 
that was used to teach Rosie how to rivet. And I think you 
might remember the outcome of that. The weapons that Rosie 
developed helped manufacture two heavily industrialized nations 
on two fronts in a very short period of time.
    But that, and the Doctor spoke to a workforce that has more 
than just the skills but has the awareness and the leadership 
capable to not only become master shipbuilders but masters of 
themselves as individuals and most importantly, leaders in 
their community.
    We have a young man in our workforce about 26 years old, 
who recently ran new to Ketchikan, ran for our rural assembly 
and won, surprised everybody. And he did it through technology, 
through social media.
    Another approach we take, and it has to do with how people 
learn and the resources available and it has to do with cell 
phones, most information in shipyards in the United States come 
from the top/down to the shop floor. And if any changes need to 
be done to the plans or anything, that goes through an arduous 
process back up through the chain of command from project 
management out to the project engineers and can take weeks, 
days and days, if not weeks and months to affect changes to the 
design of a ship.
    So a young fellow from Lawson Associates, whose office of 
naval engineers is in Seattle, who is the engineer for our 
ferry project came up with a quick app that he calls Redlining. 
And now with the Redline app our folks on the shop floor, men 
and women, when they see an exception to the design that needs 
changing, that needs a markup, or things aren't fitting 
together, they can take out their iPhone, take a picture of it 
or take a video of it, speak into the microphone, explain what 
the problem is, and hit send. That goes out to the production 
team all the way up to management as well as down to Seattle to 
the Glosten offices where those changes are made.
    So and again, those ideas are coming, not from management, 
but they're coming from the shop floor, from the front line 
workers.
    Senator Cantwell. Thank you, Mr. Ward.
    Sorry to go over. Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Lee?
    Senator Lee. Thank you, Madam Chair.
    Thanks to all of you for being here today to discuss these 
interesting issues.
    We have heard a lot of fascinating discussions about how 
new technologies are functioning and what the government and 
private sector are doing to facilitate research and encourage 
innovation. It brings about a lot of these developments that 
make our daily lives better.
    Our economy is, of course, changing dramatically as a 
result. Jobs that have supported families for years, for 
decades, for generations, for centuries, in some ways, no 
longer exist due to automation, globalization and other related 
trends, many of which lie well beyond and outside the scope of 
public policy.
    Research from the World Economic Forum found that over 
5,000,000 global jobs could be lost by 2020 as a result of 
advances in genetics, artificial intelligence, robotics and 
other technological advances. The research also predicts that 
2,000,000 new jobs will be created and that 65 percent of 
future jobs will be careers that have not yet been invented, 
that do not yet exist.
    Given these challenges and also these opportunities, I want 
to make sure that Americans are prepared to thrive in this new 
economy and to participate in the job markets of the future. 
Those that we cannot fully anticipate now but that we should be 
looking toward in an effort to understand before they hit us.
    But to be candid, I am worried that our current 
institutions may be failing in some ways to help us prepare 
American workers for the jobs that might be available for them 
tomorrow. For instance, Federal higher education policy today 
tends, somewhat, to marginalize vocational and parochial 
training in favor the more traditional four year colleges. I 
believe this imbalance is not only unfair, it is economically 
misguided. Just as a matter of economic strategy, it is not a 
good idea.
    If the government is going to assist young people to attend 
college and to read Shakespeare, I think it should also provide 
assistance to students of all ages, who want to attend 
technical school to build and repair ships, for example.
    Now none of this is to denigrate or marginalize in any way 
the value of studying Shakespeare, but I think that is a great 
thing. We ought not be providing the one and not the other, 
especially when we see that advances in technology are changing 
the workplace.
    So Mr. Ward, I would like to ask you a question. How has 
the shipping industry changed since you entered it, and as a 
follow up question to that, I would like to know whether you 
think that the current education system is meeting the needs of 
the modern worker?
    Mr. Ward. Well thank you, Senator.
    Well there's been enormous changes in the shipbuilding 
industry since we started just 20 years ago, and those changes 
have to do with the speed with which information is transferred 
from one location to the other. And I think with the 
distribution of electronic media throughout the workplace, the 
ability to have information flowing, not only to the workshop 
floor but from the shop floor back to the design teams is an 
enormous innovation and ability to speed up the production 
process.
    The question about our workforce development system, I've 
been on our Workforce Investment Board of the State of Alaska 
for nearly 20 years, been the chair for three or four years. 
And it is my opinion that we need really to overhaul our 
investment system and education system to honor the production 
skills that go on in advanced manufacturing. It is no longer a 
dirty, grubby job. Almost every production phase in the 
shipyard has become so technically advanced that it takes a 
minimum of the equivalent of two-year associate degree to 
become a productive entry level worker.
    I think that's how the industry changes a lot. Our demands 
for technical knowledge on the shop floor has certainly 
increased. And I think those of us that have respect for the 
front line worker and begin to treat the front line worker as a 
fixed asset with a 30-year life span and if we, as a society, 
can provide the educational tools and training tools for them 
to take advantage of the technology that we have available, 
that we will be back, certainly in the shipbuilding world, as 
competitive as any nation in the world.
    Senator Lee. So there is a lot at stake if we do not reform 
it. If we do not do that we could stand to lose it.
    Mr. Ward. Absolutely.
    Senator Lee. Okay.
    Thank you, sir. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    Senator Franken?
    Senator Franken. What an exciting panel.
    You know, sometimes in this job we get a little pessimistic 
when we see things. This is unbelievable what you guys are 
doing, and this makes me an optimist.
    Because of the amazing things that we are doing in advanced 
manufacturing, Ms. Wince-Smith talking about the future, all of 
you talking about the future. There are a couple things I want 
to talk about.
    Skills gap, which we have been talking about. I have a 
thing called the Community College to Career Fund Act. 
Basically what it does is it says it puts money into exactly 
what we are talking about, training workers, because 
manufacturing is not dark, dirty and dangerous. It is saying 
that yes, go to a community and technical college while you are 
working so you can get credit. Right? Is that what you are 
doing in Ketchikan?
    Mr. Ward. Yes, sir.
    Senator Franken. Could somebody talk about this some more? 
We need apprenticeships. We need to do what they are doing, 
what they have been doing in Germany and Switzerland. And we 
can do this. Yes, baby boomers are retiring from these jobs.
    But boy, we have people who need jobs and need high-skilled 
jobs. And these jobs, yes, automation is not, should not be 
replacing people. It should be creating the opportunity to 
place people to have higher skilled jobs.
    Can someone talk to that? Not for too long. [Laughter.]
    Dr. Christodoulou. I'll be glad to. Thank you, Senator.
    I feel passionate, in the same way that you do, about the 
skills that are required for the new jobs.
    For example, we need the new jobs for the people that 
develop the robotics, that program the robots. It's a different 
skill set than we had, than we needed in the past, and I think 
that is a tremendous opportunity for our young people. And the 
community colleges also provide training and retraining of our 
existing workers. We must not forget them.
    Senator Franken. Right.
    The idea that you are going to go to college for four years 
and then never go to college again is silly.
    What we are talking about is you get a credential. You go 
to work, and your employer will send you back to school while 
you are working, while you are earning money, and pay for your 
college and that goes to college affordability.
    Dr. Christodoulou. Exactly.
    And you know, employer programs such as ours that have 
spent over a billion dollars since 1998 in training our own 
workers at colleges throughout the country are really 
important, I think, and need to be emulated because you know, 
the rate of change in technology is so fast, a degree that you, 
that we, obtained 20 years or 30 years ago may not be relevant 
anymore. We need new skills.
    Senator Franken. Right. So you are going to go back and 
forth to school?
    Dr. Christodoulou. Exactly.
    Senator Franken. Or get your skills while you are working.
    Dr. Christodoulou. While you are working.
    Senator Franken. Okay.
    Dr. Christodoulou. In the Employee Training Program.
    Senator Franken. So, wonderful stuff there.
    I want to talk about energy efficiency. I grew up in 
Sputnik. And Sputnik, our response to Sputnik was holy 
mackerel, the Russians/Soviets are now ahead of us in space and 
have nuclear weapons. We are frightened to death.
    My parents sat me and my brother down in our living room in 
St. Louis Park, Minnesota, and he said, ``you boys are going to 
study math and science so we can beat the Soviets.'' I thought 
that was a lot of pressure to put on a six-year-old. 
[Laughter.] But my brother and I studied math and science, and 
we beat the Soviets. So you are welcome, everybody. [Laughter.] 
You are very welcome. You are very welcome.
    Last December, 195 nations got together and said that we 
are going to reduce greenhouse emissions. I want to know how, 
what we can do as a nation, to make a reality of responding to 
this crisis, this ``Sputnik'' moment, to create the next 
generation of clean energy technologies that are manufactured 
in America? Ms. Wince-Smith?
    Ms. Wince-Smith. Thank you, Senator.
    I just have to jump in and say that they were the four Ds 
Japanese said back in the 1990's, dirty, dumb, dangerous and 
disappearing. And so we know the last one is no longer the case 
on manufacturing.
    You know, you mentioned energy efficiency and energy 
productivity is really emerging as one of the competitive edges 
in moving in to this clean energy supply chain because even 
these new materials we're talking about, the properties they're 
delivering are so much more, not just efficient but productive 
in how energy is generated and used.
    I think in the case of the United States what we're seeing 
is in addition to the concern about climate and all of that 
impacting our environment, is a real business case for moving 
out on the energy front. And it's not just nice to be doing 
anymore. It is absolutely critical to their competitiveness and 
competitive advantage.
    An example, I think, of this very, very exciting on energy 
productivity efficiency now is in the textile industry. We were 
talking about the revitalization of shipbuilding, but, our 
textile industry is really on the move. For example, we have at 
the Council on Competitiveness, we're very proud of this, the 
first installation of new carpet made by Mohawk in South 
Carolina, totally sustainable, completely manufactured, 
designed here with a very modern factory. I just learned a week 
ago that they take all of the bottles from Pepsi and use those 
and recycle those to produce this carpet, and they're saving 
huge amounts of energy. So they see themselves now as being on 
the forefront also as both an energy producer, user and moving 
end of the clean manufacturing space.
    I think that the United States is really poised to capture 
many of these markets, but it's going to depend on a whole set 
of issues that we've been talking about here today.
    Senator Cantwell [presiding]: Thank you.
    Senator Stabenow?
    Senator Stabenow. Thank you very much, Ranking Member and 
to our Chair, this really is a terrific hearing on a subject 
that many of us are very excited about in a number of ways.
    Coming from Michigan, obviously I have a passion for 
manufacturing and as it is changing the opportunities we have. 
Personally I do not believe we have an economy unless somebody 
makes something and grows something. And frankly, we do not 
have a middle class unless somebody makes something and grows 
something. In both of those areas technology is causing change 
and there is innovation but there are incredible opportunities.
    So let me start with one piece that all of you have talked 
about which is on the research end of things which again, to 
keep us ahead of everyone else, the ability to put together the 
composites, to be able to deal with all of the different issues 
that we need to deal with.
    Dr. Williams, I have to say while Ohio State is a great 
competitor of Michigan State and the University of Michigan on 
the basketball and football fields and others, we are proud to 
be partners with Ohio State as we are looking at how we develop 
these new materials, new processes which is really where we are 
going to need to be as we are dealing with energy efficiency as 
well as other opportunities.
    In the Energy bill that I am hopeful is going to be able to 
be passed by the Senate and the House and signed into law, we 
have a Vehicle Innovation Act extension which is very important 
around the ability to partner the Federal Government doing 
research and development in all of these areas, a very 
important role, I believe, for the Federal Government.
    The question that I have for anyone that would like to 
respond to it is, what are the biggest challenges to getting 
these technologies into the marketplace? We see the 
partnerships going on around research. It is incredibly 
important that the Federal Government, I believe, invest in 
that as well as the private sector. We have these new ideas. 
How do we get them into the marketplace, and what do you think 
the Federal Government's role is in moving this from basic 
research actually into the marketplace?
    Yes, Ms. Wince-Smith?
    Ms. Wince-Smith. Thank you, Senator.
    I'll start on a couple issues. One, while we have a very 
strong dynamic venture capital system in the United States, so 
much work is underway that we do have this gap but it's time to 
scale up.
    Senator Stabenow. Right.
    Ms. Wince-Smith. You know, new innovative companies, and 
that is a huge challenge.
    The venture capital business model really doesn't work for 
that. When it's time to actually put the resources in.
    Senator Stabenow. Right.
    Ms. Wince-Smith. To build a factory and to go at scale. And 
so, how we develop partnerships between some of these smaller 
innovative companies and our large scale enterprises that are 
the end users of some of these things, is very much an 
opportunity and a need going forward.
    The other thing I would say that is an advantage to the 
United States is our strong intellectual property laws and the 
fact that we're not dealing with some of those negative issues 
that are in other parts of the world. Accelerating that for 
partnerships is very important as well.
    Finally, a good example I would mention is on the research 
and development and getting things into the market. Probably 
one of the biggest barriers now we're facing is entrenched 
infrastructure where a disruptive technology or product really 
impacts the whole life cycle of that activity. I'll give you an 
example. We now have nano coatings, coatings in materials made 
at the nano level.
    Senator Stabenow. Right.
    Ms. Wince-Smith. And that's a huge multi-trillion-dollar 
market. A lot of the innovations coming from our universities, 
our labs and the existing players in big industry don't always 
see those as in their interest to adapt.
    The other piece is we don't have the standards and the 
certification yet for some of these. I think that's an area 
where we need deeper public/private partnership on standards 
and certifications so we can be the first in the world to 
actually certify some of these new materials and new additive 
parts and things that come out of our innovation ecosystem to 
get the market share globally.
    Senator Stabenow. That is great.
    Anyone else? Dr. Williams?
    Dr. Williams. Thank you, Senator.
    And always great to play Michigan. [Laughter.]
    I'd like to build on what Deborah just said about 
intellectual property. The barrier between universities and 
industries and understanding the different missions and 
creating flexible intellectual property partnerships has been 
around for many decades. I think universities now are becoming 
a lot more flexible. And indeed, we have.
    We spent a year negotiating a deal with Boeing to create a 
master agreement that satisfied both the freedom of the faculty 
to do their research and publish as they wish but also to 
recognize the need of companies to have some protection for the 
investment they have put into new materials and new processes. 
And I think as we develop stronger and stronger industry 
partnerships across the nation, our ability to be flexible 
about intellectual property will make for a much greater flow 
through of the blue sky ideas that universities generate into 
the practical applications that industry needs.
    Senator Cantwell. Thank you, Dr. Williams.
    Senator Gardner?
    Senator Gardner. Thank you, Senator Cantwell. I apologize 
for dropping in and out of the hearing. We have another hearing 
in the Foreign Relations Committee going on at the same time, 
so I am trying to participate in both.
    Thank you very much for being here today and sharing your 
expertise. To the leadership of the Committee, thank you for 
hosting this hearing.
    Now Dr. Blue, to start off a discussion with you about the 
National Renewable Energy Laboratory in Colorado, talking a 
little bit about wind turbine technology developments, my 
understanding is that NREL is a key partner at the Institute 
for Advanced Composites Manufacturing Innovation. Could you 
talk a little bit, specifically, about the work that NREL is 
doing on R&D, how the work being done there eventually leads to 
lower cost of wind production energy costs for business and 
consumers?
    Dr. Blue. Yeah. Thank you, Senator Gardner.
    Yeah, NREL is leading our wind technical focus area. 
They're really looking at the scale up of actually innovative 
new technologies. One of the very first projects that they're 
looking and working with is the supply chain which is really 
key to success, we can't work on just one facet of the puzzle, 
is actually thermoplastic composites. And you say, well why 
thermoplastic composites? It really increases recyclability. 
And so that's one of their initial projects.
    They're also looking at segmented blades. As we all know 
the blades are getting larger and larger and larger, and if 
there's a methodology such that you can actually assemble in 
the field, this is of great interest.
    As you increase also the stiffness so they're looking at 
introducing carbon fiber which is a much stiffer material which 
limits your deflection because as you get above 55 meters you 
actually get deflection and you actually hit the tower.
    So these are the sorts of things that they're working on, 
you know, increased wing capture, lower the cost through 
increasing wing capture, working hand in hand with industry to 
actually take the technology out of the lab and actually into 
the manufacturing floor.
    Senator Gardner. Are you able to learn from businesses like 
Boeing, who builds the 787 using the carbon composite 
technology? Can you apply those lessons learned to wind energy 
development, things like that?
    Dr. Blue. Yes, you definitely can.
    While the funding opportunity announcement actually called 
out that it was not aerospace composites, we've actively 
embraced the aerospace industry. Boeing, sitting to the left of 
me, they're a premium member. Lockheed Martin is a charter 
member.
    And if you look at the maturity of composites for the 
aerospace industry, we're working with essentially the entire 
supply chain, from the materials side to the equipment 
manufacturers. We're just changing the cost equation and trying 
to drive down costs for high volume manufacturing.
    Senator Gardner. Very good.
    My next question is to your left now. I have been debating 
whether I call you Dr. Leo or do I try Christodoulou? Is that 
right?
    Dr. Christodoulou. Christodoulou is fine.
    Senator Gardner. Okay, very good.
    Dr. Christodoulou. But Leo is perfect also.
    Senator Gardner. Would you like to follow up on that at 
all? I also have some additional questions for you.
    Dr. Christodoulou. Absolutely.
    I actually am--we see tremendous synergies between the 
national labs and ourselves in the collaboration with the 
whole, all of the national labs.
    For example, I'll be specific. We actually have Boeing 
folks stationed at Oak Ridge National Labs, and they've been 
there for a couple of years. And we're going to be increasing 
that presence. And the net effect of that is to bring the 
industrial perspective to the national labs with a tremendous 
simulation and modeling capabilities that they have.
    You know, as we talk about the synergies that come out, 
across from the differences in point of view are very profound. 
And we can leverage the capabilities of the national labs while 
they leverage our knowledge of the fabrication, the scale up 
and the needs for day after day quality products to come off of 
the lines.
    So it's a very productive relationship. The government, I 
think, and Congress and the government can really help this by 
the establishment of such facilities such as the manufacturing 
demonstration facilities, a facility that exists down at Oak 
Ridge. That facility brings together the academics folks from 
Ohio State, among other universities, the University of 
Knoxville, small companies, entrepreneurs and companies such as 
ours. And we all work together in a precompetitive, 
collaborative arena.
    And the goal there is to accelerate the implementation of 
technology. You know, the government is very good at funding 
research and has been very effective funding research at the 
discovery phase. The next phase, I think, that we need to think 
about is the science of manufacturing, if I can call it that.
    You know, there is that step, that valley of death between 
the innovation and the actual implementation. And the science 
and the technology that goes into the scale up and 
manufacturing is a very fruitful area for collaboration between 
the national labs, universities and industry.
    Senator Gardner. Well, thank you for that.
    Senator Gary Peters, from Michigan, and I are working on a 
reauthorization of the commerce portion of the America Competes 
program. One of the focuses of our effort is to deal with and 
address STEM education and reforms and advancement we can make 
in STEM education.
    So just briefly, I have run out of time, but briefly 
address this if you would.
    Senator Cantwell. No, we have to move on, I am sorry.
    Senator Gardner. Oh, okay.
    Senator Cantwell. I mean, you can ask them for the record. 
That would be okay.
    Senator Gardner. Okay, just get your thoughts on STEM 
education and attracting more women and minorities into the 
STEM fields.
    Dr. Christodoulou. I will be glad to provide that.
    Senator Gardner. Thank you.
    [The information referred to follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Cantwell. Thank you, Senator Gardner. Sorry, we are 
just trying to fit everybody in.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair.
    We have heard a lot today about the changing nature of 
manufacturing, innovative technologies that have enabled 
manufacturing operations to become smarter, more efficient, 
more complex. And just a couple of weeks ago the Department of 
Defense announced funding for a new $317 million innovation 
institute in Massachusetts that would focus on researching 
revolutionary fibers and textile manufacturing. I want to add, 
it is about how to bring those to markets. So it is both 
halves. It is the science and the marketing and the development 
of it. So we really have something that works here.
    You know, investments like this are not going to make a big 
difference, I understand, in manufacturing as we go into the 
21st century. But how we make things is not the only thing that 
is changing. The rise in advanced manufacturing also places new 
demands on the people who actually do the work.
    So let me start there. Ms. Wince-Smith, your testimony 
highlights some recent developments in manufacturing. As 
manufacturing becomes more reliant on advanced technologies, 
what trends are we seeing in what employers demand from their 
workers in terms of education?
    Ms. Wince-Smith. Thank you, Senator Warren.
    Well I think we discussed a little bit about this in some 
of our testimony but it's really workers who are not performing 
routine jobs that do not require quantitative skills and 
judgment.
    Increasingly the workforce in any manufacturing environment 
one has to exercise judgment. They have to be prepared to 
insert themselves in a position when in the past they stood on 
an assembly line, and the quantitative skills that have not 
traditionally been taught for this type of work is a tremendous 
barrier for us now.
    One thing I think that's a very exciting model to look at 
for how some of these skills are being developed is really the 
training programs that we're seeing with the pipefitters and 
plumbers.
    Senator Warren. Fair enough.
    But I just want to push on this a little bit more because I 
actually found some data on this. American manufacturing jobs 
help build America's middle class, but today those jobs require 
a lot more education.
    Just since 2000 the share of manufacturing workers with 
college or advanced degrees has gone up by seven percentage 
points. And that is just in 15 years basically, that has 
happened.
    But at the same time that the importance of post-secondary 
education has grown, the cost of receiving the education has 
skyrocketed. College students today will pay, adjusted for 
inflation, about 300 percent of what someone would have paid a 
generation ago.
    Today 70 percent of four-year college grads must borrow 
money to make it through school, and the U.S. Government is 
profiting off the backs of these students with the student loan 
program. I think that is obscene.
    So let me ask, Ms. Wince-Smith, what do rising levels of 
student debt mean for the growth of the manufacturing sector?
    Ms. Wince-Smith. Well it's a very serious issue, as you 
described, because it acts as a barrier for students coming in 
and getting the advanced education they need. And it also 
limits their opportunities as they move into the workforce as 
well because they are saddled with this debt. I think this 
raises a whole much, a broader discussion around some of the 
structural issues in our higher education system.
    But also, when you look at the continuum, the role of the 
community colleges is so important in the infrastructure we're 
talking about and the partnerships that they have both with 
companies and then, you know, sort of these manufacturing 
ecosystems.
    So I do think that the student debt issue is one that 
relates to this, but even more important is how are we going to 
ensure that the next generation of American young people have 
the STEM skills, have the interest of even going into a 
manufacturing environment?
    I mean, one of our Council on Competitive members, who 
spoke recently testified, the CEO of Snap On which is a 
fabulous manufacturing company. He said, how many in the room 
would feel happy if their son or daughter said they were going 
to go in and work in a manufacturing environment? That's 
considered the consolation prize now for America as opposed to 
being a prize that's going to deliver a good standard of 
living.
    Senator Warren. Well you know, I think as we talk about the 
question about how we build a manufacturing base, certainly 
part of that is to make the investments in R&D, to make sure 
that our trade policies benefit, not just big business and 
their investors, but that they work for all Americans.
    But it also means investing in our most valuable asset, and 
that is American workers. We face a choice. Are we going to 
invest in post-secondary education and training so that our 
workers can get the skills they need to develop good careers 
and they have financially secure lives, or are we going to keep 
saddling them with mountains of debt to pay for that education?
    The only way that American manufacturing will truly rebound 
in this country is if we start taking seriously our investments 
in people, and that means helping people get an education 
without getting crushed by student loan debt.
    Senator Warren. Thank you.
    Senator Cantwell. Thank you.
    Senator Cassidy?
    Senator Cassidy. I have a question for anyone.
    We have discussed various types of alternative materials. 
What about concrete? For example, it is very energy intensive, 
and we use a heck a lot of it. I think I just saw that the 
United States is the third leading production, and it is a 
tremendous source of greenhouse gases. So do we have 
alternative for concrete? That is one example. Rubber is 
another. Anybody?
    Dr. Williams. I can't speak to concrete, but certainly 
rubber has been researched in many different universities, 
different sources of rubber, actually dandelions grown in 
Northern Ohio are being used as a--to develop alternative 
sources of latex. So there are different bio approaches to 
rubber.
    I have not heard of any significant alternatives to 
concrete just given the scale of the use of concrete across the 
nation.
    Senator Cassidy. Okay.
    Ms. Smith, you lead off your testimony speaking about the 
lower energy costs in the United States relative to other 
countries, and you seem to tie that to this research into 
alternative materials. Is it fair to say that oftentimes the 
energy input into something of advanced manufacturing might be 
higher than in non-advanced manufacturing? Is that true or?
    Ms. Wince-Smith. Absolutely.
    And you know, having this situation in the United States 
where we've moved from being an energy weak country to an 
energy strong country has really been transformational. Our 
costs of energy now are four times less than Germany. Just a 
huge competitive advantage. And it--
    Senator Cassidy. So it is a huge competitive advantage, but 
I am gathering also you are implying essential to having a, 
what is, a cost effective, a favorable cost benefit ratio of 
these advanced materials relative to other countries. Is that?
    Ms. Wince-Smith. Yes, because of the cost of the feed 
stocks that were so, you know, part of the energy costs.
    Senator Cassidy. So if you have composite carbon that goes 
into a plane that achieves 30 percent less fuel usage, 30 
percent greater fuel efficiency, that carbon coming from 
natural gas is a feed stock.
    So it strikes me as a little ironic. Those who think they 
are saving the Earth by wanting to not develop our natural gas 
resource. I am hearing from you that that would actually be 
counterproductive. Not only will we lose our feed stock but it 
would be more cost prohibitive if we do not have our cheap feed 
stock in order to create this carbon fiber which then saves us 
all this fuel.
    Ms. Wince-Smith. Well, I will say that the U.S. Council on 
Competitiveness, for many years and increasingly in recent 
years, has really argued for having a balanced energy portfolio 
including utilizing our tremendous bonanza of natural gas and 
the impact it has on, not just our chemical industry, but on 
the other dimensions you've described.
    Senator Cassidy. Okay.
    Now let me ask as well and this is more trade policy, but 
you are all thoughtful people. If we come up with this great 
intellectual property, and I always take as my prism that 
working family, that gal or that guy that does not have an 
associate degree. We spoke about how so much education was 
required, but the reality is there is a group of folks who are 
going to make their living pulling a wrench. And they are not 
going to go to college, for whatever reason.
    I have been monitoring what people have asked and it seemed 
like the continued mantra is that we have to invest in worker 
training. I totally get that. But there is still going to be a 
population of workers who, for whatever reason, do not achieve 
that higher level of training.
    It seems as if inherent in everything we have been saying, 
we may develop the intellectual property but depending upon 
trade regulations that intellectual property may be utilized in 
China after we have developed it, or India or Mexico, as 
opposed to bringing jobs here. There is nothing inherent in 
anything we are speaking of that the job created downstream 
would be created in the United States unless it is in a Jones 
Act shipyard in Alaska. Except for that Jones Act shipyard is 
there any other, and I guess maybe if we have more energy 
efficient energy production, that is domestic by definition. Is 
there anything besides those two examples in which the benefit 
would necessarily accrue to workers having such a hard time 
now?
    I am taking that as a no. [Laughter.]
    Ms. Wince-Smith. Well I think one of the ways that we'll 
accrue is how all of this innovation and the transformation of 
manufacturing and energy is absolutely essential for our 
economic growth. I mean, one of the challenges our nation is 
facing is very flat productivity and of course, that's directly 
tied to wages and employment and also our economic growth.
    The Gallup Corporation estimates we have to really reach 
3.75 percent in economic growth in order to keep pace where we 
are right now.
    Senator Cassidy. I totally accept that, but greater 
efficiencies does not mean a greater number of jobs. Greater 
number of jobs is obviously new markets, new technologies for 
previously unmet needs. But I totally accept what you are 
saying. I yield back. Thank you.
    The Chairman. Thank you, Senator.
    Senator King?
    Senator King. Thank you.
    One of the advantages of being last in line is you get to 
listen, and this has been an excellent presentation. I think 
the best line I have ever heard about manufacturing is that you 
cannot build an economy on taking in each other's laundry. 
Somebody, somewhere has to make something.
    Dr. Blue, I want to give you a name and a phone number. 
Habib Dagher, D, A, G, H, E, R. He is the Director of the 
University of Maine, Advanced Composite Center. He is one of 
the most dynamic individuals I know, and I want you guys to 
become acquainted because they are doing amazing things.
    They have, for example, a huge testing facility for wind 
blades. They also have, essentially, a model of the ocean. They 
have a tank that can model any situation, any storm, any wave 
situation on a scale for testing offshore facilities, 
particularly offshore wind projects.
    They have also been doing composites research for 20 years. 
One of the most important areas, and I want to urge you to 
please look at this, is nano cellulose polymer technology. We 
have a gold mine of fiber in Maine which historically has been 
used to make paper. The paper industry has been brutally 
hammered in the last five or six years. We have lost something 
like five paper mills to the combination of lower dollars and 
lack of demand, principally.
    We need a George Washington Carver of fiber. I remember 
from the sixth grade, George Washington Carver was the 
scientist who figured out a hundred ways to use peanuts. We 
need that kind of research. University of Maine is doing it. 
You could be a huge help. So I hope you will get in touch with 
Habib. You will enjoy getting to know him, and I think there 
are some real partnerships to be had.
    So if you can find a question there you are welcome to it, 
but--[Laughter.] That was more of a statement.
    Dr. Blue. No Senator King, thank you very much. I will 
follow up on your recommendation. I am aware of the work, and 
we have talked to them previously. We have our leader of our 
materials and processing reaching out to them to see if they 
can become part of this institute. So--
    Senator King. Thank you.
    Dr. Blue. Yup, thank you.
    Senator King. Ms. Wince-Smith, we were talking about 
advanced manufacturing but the implicit question is what is the 
Federal role? That is why we are here. It seems to me, hearing 
you today, it is R&D and training workforce. Would you concur?
    Ms. Wince-Smith. I would, Senator.
    But I would also add that the Federal Government has a very 
important, increasingly important, role in helping develop the 
shared infrastructure for 21st century manufacturing. And that 
encompasses the carbon facility, for instance, we've been 
talking about at Oak Ridge. It encompasses having a network of 
the most advanced supercomputers really in the world, and our 
companies and our researchers being able to access that.
    Senator King. What if the Federal Government stopped 
funding all of this altogether? Just stopped and only built 
ships and airplanes and defense and Navy and maybe some 
agriculture programs?
    Ms. Wince-Smith. I think it would be very deleterious to 
the long-term future of our country because so much of the 
innovations that we're talking about have depended on these, 
the long-term stable investments in research and development 
and also having, for instance, in the national laboratories.
    I mean, if any country had to try to replicate the system 
we have today it would be virtually impossible. These are 
absolute treasures for us because they work at the frontiers 
but they also work in a multidisciplinary way and they make 
things. You know? These national labs have a history and 
tradition of also fabricating. And so getting our companies to 
team and vice versa is a huge strategic advantage we have. So 
nurturing those for complex government missions, including 
collaboration and our national security front. We haven't 
really talked about that too much, but at the end of the day we 
have to be a great manufacturer or we're going to have 
tremendous vulnerabilities in national security.
    Senator King. In fact, you can argue when you go back to 
World War II it was our manufacturing strength coupled with our 
armed forces that actually won the day. I remember reading 
about people in Japan looking up and just seeing all these 
airplanes coming. How in the world did they do that? That is 
part of our national security for sure.
    I am going to have your answer that you just gave reprinted 
and put in the congressional record because often times around 
here people talk about the Federal Government does not do 
anything or cannot do anything right. I think research and 
development is one of the crucial functions. Of course, so is 
job training because we are having these transitions.
    I want to commend to you a problem though, and that is what 
I call the stranded worker problem. You can have a worker who 
loses their job in a traditional manufacturing industry and 
then you create a new job that day in computer programming to 
program the robots. That person who lost the job cannot 
necessarily do the new job. On paper, it is no net job loss. In 
reality it is a tragedy for a family.
    We have to be focusing on workers in their 40's and 50's 
who are being displaced by technology and robotics, and how do 
they get back into the workforce?
    I am out of time but I hope you will all supply some 
thoughts for the record on that because I think that is one of 
the problems facing our country. Training of young people, but 
also supporting, retraining and working with those who are 
being stranded by the changes in the economy.
    Madam Chair, I am out of time. Thank you very much.
    The Chairman. We are out of time, but I am interested in 
the response. So I will use it on my time because I think it is 
very pertinent, very relevant to where we are to ensure that 
where we are doing right, by not only our young people, but 
those who are transitioning to other opportunities as well.
    How do we stay ahead?
    One of the things that we are looking at in Alaska, we want 
to make sure that when we are able to move our natural gas to 
market, we need to know that we have got the trained Alaskan 
workforce. But you cannot train them up too soon because then 
you do not have the jobs. So you have trained them for 
something that does not exist yet.
    Knowing how quickly things come, how do you make sure that 
that pipeline is significant enough? But again, I think to your 
point, for opportunities that we might not even know yet. So I 
will throw Senator King's question out to all the rest of you.
    Dr. Christodoulou?
    Dr. Christodoulou. Madam Chairman, I feel passionate about 
the retraining aspect of our educational program, because I 
remember when I was a student at the university. George the 
machinist, I could give him a little hand drawing and he would 
create an excellent piece of engineered machinery. And that 
person can now, that kind of skill, can be translated to the 
new economy. That person that used to do machining can now do 
other manufacturing.
    I know it's hard to do. It's hard to retrain people, but 
it's possible through the schools, the community colleges and 
hands on training programs that we have.
    For example, companies like ours, like The Boeing Company, 
every year we take on the order of 1,500 interns that come and 
spend time with us. Now these interns are typically young, but 
they don't have to be.
    So, you know, we look forward and we want to see more 
retraining because the technology change of the rate of change 
of technology is such that it's unlikely that somebody who has 
been trained in one field, you know, a long time ago, will 
remain relevant in the new economy.
    Additional to that, the new generation, I think, are very--
of our people are more adaptable to, what I call, the digital 
revolution. They like to change.
    The days of where somebody had a 40-year career in a single 
field are fast diminishing. People like to change jobs and go 
from one interest to the other.
    And I think that culture change can be aided by the Federal 
Government and Congress in facilitating this retraining, the 
local retraining programs.
    The Chairman. Well Doctor, let me interrupt for just a 
moment because I do not disagree with anything that you say, 
but sometimes I feel that our institutions are not as nimble as 
our people. I go back to your example, Mr. Ward, about the app 
and just being able to move quickly. There are probably some 
that would look at that and say, too fast, does not fit with 
the construct here. I am reminded of some of the challenges 
that our military are facing. They have incredible skills they 
have acquired throughout the military, but those skills then do 
not translate to the certificate that is needed once they are 
out.
    So making sure that there is a greater flexibility, I 
guess, is the word, or maybe just more nimble because I worry 
that our institutions are locked into where they are today 
rather than projecting forward to the next opportunities.
    I want to ask one more question here, and I will just throw 
it out to all of you. You can either continue on this question 
or help answer me this one. How do we move the amazing R&D that 
we see out there, what we have coming from our national labs, 
from our research universities? How do we transition this 
technology out of the lab and into the marketplace? Because in 
this Committee we hear time after time after time that you have 
these great research places but we talk about the valley of 
death, how they move or fail to move from one and actually 
translate into the marketplace. How do we do a better job of 
that transition?
    Ms. Wince-Smith?
    Ms. Wince-Smith. I'll jump on that one, Senator Murkowski.
    The Chairman. Okay.
    Ms. Wince-Smith. One of the things that is going on in this 
whole space of, you know, from discovery to deployment are new 
models that are being created of partnerships. I'll just give 
some examples from the national labs. Not too long ago there 
was this perception that there was all this valuable technology 
sitting on a shelf in these national labs, and we just needed 
to have an efficient process for licensing and it would go out 
and be deployed in industry.
    And certainly in universities and labs there are some 
technologies that really are ready to be licensed. We know of 
some pharmaceutical blockbusters and things that have come out 
of that. But for the most part in order to do the maturation 
and build the part, there has to be a partnership.
    And so, speaking of the national labs, we're seeing now 
some very deep strategic partnerships with individual U.S. 
companies teaming with these labs but also in the model of some 
consortia as well.
    That's one model I think where we have some progress and a 
competitive advantage compared to other countries, really, of 
working that way.
    I'll give you another example. General Electric, they have 
a major partnership with Livermore in additive manufacturing. 
And they're already a big player in that. But their teaming now 
in some very advanced technology to accelerate that. That's a 
great example that we'll get that into marketplace, and other 
companies have the right to come in and do that sort of thing 
as well. And we heard about Boeing's deep partnerships.
    The other issue though is some of these innovative early 
technologies where new companies form and how you get the 
venture capital and scale. I think that's the biggest problem 
we have because we saw at the height of the early investment in 
clean energy, that so many of those technologies and companies 
they reached a certain point and they went offshore.
    We have cases where the Chinese came in and bought 
companies that we had nurtured to a certain point, and we 
couldn't scale them and they were gone. That, to me, is an area 
where we all should be working very hard to figure that one 
out.
    The Chairman. So let me ask, Dr. Blue and Dr. Williams, 
from the national labs' and from the university's perspective, 
how do we get it from you out into the marketplace?
    Dr. Blue. Thank you, Senator.
    So the real key to success is people, and the best tech 
transfer is people. So having people work side by side 
integrates the supply chain.
    The vast majority of the projects that we're executing are 
industry-driven projects. You have to have the pull from the 
industry and then you have to bring the supply chain along such 
that when you have success all the facets that are needed to 
really cross the threshold into commercialization, it's there. 
And that's where we've had our most success by far.
    So you know, we've worked in everything from turbo chargers 
and diesel engines, again, where you had the big OEMs doing the 
pull, the supply chain. Three million turbo chargers today in 
Cumming's engines. Those sorts of things.
    Additive manufacturing. We're fortunate that the MBF is the 
home of the Shelby Cobra. The story behind that is the fact 
that you had the equipment manufacturers in there. You had the 
materials providers. You had local SMEs that did the surface 
finishing. So it was a large, integrated team that really made 
that happen with each person bringing their own innovation 
where really innovation is at the crossroads when you get 
people with different backgrounds working together.
    The Chairman. Dr. Williams?
    Dr. Williams. Chairman Murkowski, thank you.
    I think one of the keys is to have a much more flexible set 
of opportunities for our young professors, in particular, who 
see the opportunity to take their ideas and turn them into 
commercial products as something that they would like to do. 
This was not traditionally a role of professors when I started. 
And indeed, we, at the universities have changed the tenure and 
promotion requirements to encourage professors to create new 
intellectual property, to patent their ideas and to have both 
the time and the opportunity to take those ideas and start 
companies themselves.
    Last year at Ohio State there were 52 new companies started 
out of the university. That is not as good as it should be in 
comparison with some of our fine competitors, but nevertheless, 
there is increasing amounts of that kind of thing going on. The 
generation of young professors that we're hiring see the world 
very differently, again, to previous generations and expect to 
be able to start their own companies.
    Students do the same, and the opportunity for innovation at 
all levels in today's universities are much greater than it 
used to be.I'd also like to address the comment you made about 
our inflexibility. And there are certainly good reasons for 
that and within our standard degree programs we are somewhat 
corralled by the accreditation requirements to deliver certain 
amounts of knowledge in a certain period of time.
    But beyond that at Ohio State and many of the universities 
at the graduate level, the creation of certificate programs 
that may buildup to formal degree programs or may just stay as 
very focused certificate programs to bring a skill set to an 
individual either who is a graduate student or who is coming 
back for retraining. This can be done online in many 
universities including Ohio State which has literally dozens or 
even hundreds of online programs that don't necessarily lead to 
degrees but bring a skill set that an older person might value 
when they want to move into a different part of the workforce. 
So there is flexibility there but it's not always in our 
catalogs when you read them online.
    The Chairman. Understood.
    Senator King, did you want to weigh in?
    Senator King. Yes.
    The Chairman. Dr. Christodoulou or Mr. Ward, I know that 
certainly in Ketchikan what we have seen through the University 
of Alaska Southeast and their job training programs that are 
very specific to the shipyard there and have been 
extraordinarily helpful for the local people. I think there is 
that nimbleness if you can get the funding through your 
university programs. So I do not mean to be critical of all of 
our institutions in general here.
    Dr. Christodoulou. Madam Chairman, I just wanted to give an 
example of a Boeing program in Utah and the local industry 
there where we are engaging with high schools to bring young 
people into the factory, and not just into Boeing but to the 
broader community. We're doing this with Governor Herbert.
    The program has just kicked off and they have internships 
within the industrial corridor in the Salt Lake region, and 
that enables them to get first-hand experience of these types 
of jobs and the new jobs that they need.
    So the companies that we're experimenting with are a number 
of different models to enable that transition and that ability 
to experience the work environment at an early stage.
    The Chairman. Great.
    Mr. Ward?
    Mr. Ward. Well Senator, again, thank you very much.
    I guess the--your question about what are we doing for the 
40- and 50-year olds that are transitioning out of jobs to new 
jobs is one that we're going to be faced with in Alaska, 
particularly with the price of oil the way it is and our 
economic circumstances related to our state deficit.
    Our education system is going to take big cuts, our 
workforce investment system is going to take big cuts, and 
we're going to have a lot of people out of work or there's a 
very good likelihood of that.
    So how do we rapidly respond to a situation like that in a 
really small economy with not a huge demand for workers? And I 
think part of the answer, it has to do with nimbleness and I've 
heard a lot of discussion about relationships and 
collaborations here. And it's to begin looking at the workplace 
as not just a place to work, but as a place to become a whole 
human being really.
    We're beginning to talk about our shipyard as a college for 
a human being where you can come and not only learn how to 
work, but you can come and learn more about the world and more 
about to help become part of our community.
    So how does that translate to a transitioning worker that 
is 40- or 50-years old? We are beginning to have internships 
where we're having young people come in to the yard. We've got 
a young lady, Marsha Tobiack from Bristol Bay, that's just an 
awesome young worker. We take that model now, I believe, 
working with our universities and campuses, and begin to look 
at the workplace as a place to learn how to retool workers.
    So my point being develop in workplace training 
methodologies that already exist. And rather than having adult 
workers go to colleges and career centers for retraining, begin 
putting those on-the-job training opportunities where 
transitioning workers are receiving college degrees and 
assistance from the Department of Labor right on the work 
floor.
    And when you talk about nimbleness I think that's the type 
of things we need to be thinking about across the board to take 
care of some of our employment issues that are coming up in the 
state.
    The Chairman. I appreciate it. Thank you.
    Senator King?
    Senator King. On this point of training, a program we used 
when I was in state government in Maine. We tend to think of 
training over here in training institutions and employers over 
here.
    One of the programs we used was a program where we would 
fund the training that the employer would conduct because then 
they were training people for the jobs that they really had. 
There was not any danger of a mismatch. I think that is 
something we ought to think about instead, and I am not saying 
eliminate the other system, but this would be a direct funding. 
If Boeing says we need 10,000 people to staff up a new facility 
in Maine, for example, just to take it there. [Laughter.]
    But to provide direct funds to you to provide the training 
rather than have that link necessary then you can do the 
training that you need. Of course, there needs to be 
accountability and those kinds of things.
    But I think, Madam Chair, that is something we ought to be 
thinking about as we are thinking about this issue of training, 
because that's one of the essential functions moving forward to 
remain competitive and to build on the technological advances 
that we're having.
    That is just one idea that we used with quite a good deal 
of success in Maine during the 90's.
    Thank you.
    The Chairman. Thank you.
    This has been very informative. I truly appreciate all that 
you have provided.
    I am going to apologize on behalf of many of our 
colleagues. We have so many different committee meetings that 
are all scheduled at the same time, so we are all jumping up 
and down like jack-in-the-boxes here a little bit this morning.
    Do not take that as a lack of interest. I think the fact 
that we had such a good number of Committee members that were 
in attendance today indicates, clearly, an understanding and an 
appreciation that as we work for a stronger economy and greater 
jobs and good paying jobs for our families around the country 
that staying, kind of, ahead of the curve is going to be 
important in ensuring that we have the skills that are needed 
in order to be competitive in a very global society, that we 
continue to lead. And you are helping us with that, so thank 
you very much.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:55 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   [all]
                                   
</pre></body></html>
